JOHN J. BurscH
Bursch Law euc enaoees
Attorney at Law jbursch@burschlaw.com

September 21, 2021

The Honorable Scott Harris

Clerk of the United States Supreme Court
One First Street, N.E.

Washington, D.C. 20543

Re: Taylor vy. Robert J. Buchanan, et al.
No, 21-357

Dear Clerk Harris:

Under Supreme Court Rule 30.4, Respondents Robert J. Buchanan, Dana M.
Warnez, James W. Heath, Daniel D. Quick, and Joseph P. McGill, each in their official
capacities as members of the State Bar of Michigan Board of Commissioners, respectfully
request a 60-day extension of time to file their brief in opposition to Lucille S. Taylor's
petition for certiorari, making the brief due not later than December 6, 2021. Counsel for
the Petitioner have authorized us to state that Petitioner consents to this motion.

An extension is warranted because, from the date Respondents’ counsel received the
petition and over the next several months, counsel have numerous significant deadlines
and commitments, including but not limited to:

° A merits amicus brief that was due in this Court on September 10, 2021
(Carson v. Makin, No. 20-1088);

e A merits amicus brief that was due in the Eleventh Circuit on September 15,
2021 (Speech First, Inc. v. Cartwright, No. 21-12583);

° A merits reply brief due in the Fourth Circuit that was due on September 17,
2021 (Updegrove v. Herring, No. 21-1506);

° A petition for writ of certiorari to be filed in this Court on September 24, 2021
(308 Creative LLC v. Elenis, No. 21- I.

e A merits amicus brief to be filed in this Court on September 27, 2021
(Ramirez v. Collier, No. 21-5592);

e A merits amicus brief due in this Court on September 29, 2021 (City of Austin
v. Reagan National Advertising, No. 20-1029);

BurscH LAW PLLC
ATTORNEY AT LAW
9339 CHERRY VALLEY AVE SE, #78
CALEDONIA, MICHIGAN 49316 « WWW.BURSCHLAW.COM
The Honorable Scott Harris
Sept. 21, 2021

Page 2

A merits amicus brief due in the Fifth Circuit on September 29, 2021
(Freedom From Religion Foundation, Inc. v. Mack, No. 21-20279);

An appellant’s brief and appendix due in the Seventh Circuit on October 1,
2021 (Kluge v. Brownsburg Community Sch. Corp., No. 21-2475);

An oral argument in the Michigan Supreme Court on October 7, 2021
(County of Ingham v. Michigan County Road Commission Self-Insurance
Pool, No. 160186);

A merits amicus brief due in the Seventh Circuit on October 7, 2021 (Whole
Women’s Health Alliance v. Rokita, Nos. 21-2480 & 21-2573);

An oral argument in the Sixth Circuit on October 20, 2021 (Kowall v. Benson,
No. 21-1129);

A merits reply brief due in the Second Circuit on October 21, 2021 (Soule v.
Connecticut Association of Schools, No. 21-1365);

An appellee’s brief due in the Ninth Circuit on October 22, 2021 (Anita Green
v. Miss United States of America, No 21-25228);

Oral arguments in back-to-back cases in the Ninth Circuit on October 22,
2021 (Penning v. SEIU Local 1021, No. 20-15226, and Gabriele v. SEIU, No.
20-1635);

An oral argument in the Fourth Circuit on October 26 or 27, 2021 (PP South
Atlantic v. Kerr, No. 21-1048);

A presentation at the Eighth Circuit Judicial Conference in Colorado Springs,
CO, on October 29, 2021;

A petition to the Virginia Supreme Court due no later than November 12,
2021 (Vlaming v. West Point School Board, No. 21- 7

A reply brief in support of a cert. petition due in this Court on November 15,
2021 (Seattle’s Union Gospel Mission v. Woods, No. 21-144);

A reply brief in support of a cert. petition due in this Court on November 15,
2021 (Gordon College v. DeWeese-Boyd, No. 21-145); and

A merits reply brief due in the Seventh Circuit on November 22, 2021 (Kluge
v. Brownsburg Community Sch. Corp., No. 21-2475).
The Honorable Scott Harris
Sept. 21, 2021
Page 3

In addition, although the Court revoked its COVID-19 scheduling order, the recent
rise in the Delta variant is interfering with the normal operations of office work and
support staff, giving rise to scheduling difficulties. And finally, an extension will not
prejudice the Petitioner.

Accordingly, Respondents respectfully request a 60-day extension of time in which
to file their brief in opposition, to December 6, 2021.

Best regards,

Colon 9 Gy Ue {
ohn J. Bursch

Counsel of Record
Bursch Law PLLC
9339 Cherry Valley Ave SE, #78
Caleonia, MI 49316
(616) 450-4235
jbursch@burschlaw.com

Andrea J. Bernard

Charles R. Quigg

Warner Norcross + Judd LLP

150 Ottawa Avenue NW, Suite 1500
Grand Rapids, MI 49503

(616) 752-2000

ce: Derk A. Wilcox
Patrick J. Wright
